OIG Investigative Reports, San Diego, CA 11/302010 - Former El Centro Elementary School District Superintendent and Two Former San Diego State University Professors Indicted
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
OFFICE OF THE UNITED STATES ATTORNEY
SOUTHERN DISTRICT OF CALIFORNIA
San Diego, California
United States Attorney
Laura E. Duffy
For Further Information, Contact: Assistant U.S. Attorney Lawrence A. Casper (619)557-7455
For Immediate Release
NEWS RELEASE SUMMARY - Novermber 30, 2010
Former El Centro Elementary School District Superintendent and Two Former San Diego State University Professors Indicted
United States Attorney Laura E. Duffy announced that two indictments were unsealed today charging
three individuals with fraud in connection with the use of federal grant monies obtained from the National
Science Foundation (NSF) and the U.S. Department of Education (DoEd) related to elementary school science
and math education in Imperial County, California. The defendants include Dr. Michael Klentschy, former
Superintendent of the El Centro Elementary School District, and Olga Amaral and Leslie Garrison, both
former professors at San Diego State University’s Imperial Valley Campus.
According to court records, indictment number 10cr4643-BEN charges the defendants with conspiring
to enrich themselves by unlawfully diverting NSF and DoEd grant money to their own use and benefit and
with fraudulently obtaining and intentionally misapplying grant money. In addition to the conspiracy charge,
that indictment also includes charges of mail fraud and theft from programs receiving federal funds.
Indictment number 10cr4642-BEN charges Klentschy alone and separately with: (1) seeking and obtaining
multiple duplicate travel reimbursements while working for the El Centro Elementary School District and on
federal grants and alleges that one of the sources of reimbursement in each instance was the School District;
and (2) falsifying data regarding student standardized test results, which data Klentschy prepared, submitted,
and relied upon to advance his own interests in connection with a $5.4 million NSF grant. Both indictments
also include criminal forfeiture allegations.
The indictments were unsealed earlier today during the initial appearances of the defendants. Motion
hearings/trial settings have been set in both matters for January 14, 2011 before United States District Judge
Roger T. Benitez.
These cases are being investigated by Special Agents with the National Science Foundation, the U.S.
Department of Education and the Federal Bureau of Investigation.
DEFENDANT
Michael P. Klentschy
Criminal Case No. 10CR4642-BEN
Age: 66
/tr>
DEFENDANT
Michael P. Klentschy
Olga Amaral
Leslie Garrison
Criminal Case No. 10CR4643-BEN
Age: 66
Age: 56
Age: 61
/tr>
SUMMARY OF CHARGES
Criminal Case No. 10CR4642-BEN
Counts 1 through 8: Title 18, United States Code, Section 1341 – Mail Fraud
Maximum Penalties: 20 years of imprisonment and $250,000 fine per count
Counts 9 through 32: Title 18, United States Code, Section 1343 – Wire Fraud
&nbspMaximum Penalties: 20 years of imprisonment and $250,000 fine per count
Criminal Case No. 10CR4643-BEN
Count 1: Title 19, United States Code, Section 371 – Conspiracy
&nbspMaximum Penalties: 5 years of imprisonment and $250,000 fine
Counts 2 through 13: Title 18, United States Code, Section 1341 – Mail Fraud
&nbspMaximum Penalties: 20 years of imprisonment and $250,000 fine per count
Counts 14 through 16: Title 18, United States Code, Section 666(a)(1)(A) – Theft
from Program Receiving Federal Funds:
&nbspMaximum Penalties: 10 years of imprisonment and $250,000 fine per count
PARTICIPATING AGENCIES
National Science Foundation-Office of Inspector General
U.S. Department of Education-Office of Inspector General
Federal Bureau of Investigation
An indictment itself is not evidence that the defendants committed the crimes charged. The defendants
are presumed innocent until the Government meets its burden in court of proving guilt beyond a
reasonable doubt.
Top
Printable view
Last Modified: 04/14/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov